U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 26, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brett C. Lillemoe v. United States, No. 20-163
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 7,
2020. The government’s response is now due, after one extension, on October 28, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 30, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioners consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0163
LILLEMOE, BRETT C.
USA

ALEXANDRA ANASTASIA EKATERINA
SHAPIRO
SHAPIRO ARATO BACH LLP
500 FIFTH AVENUE
40TH FLOOR
NEW YORK, NY 10110
212-257-4880
ASHAPIRO@SHAPIROARATO.COM

